In The

Supreme Court of the United States
CERTIFICATE OF COMPLIANCE
No.
William H. Viehweg,
Petitioner
v.
Sirius XM Radio, Inc.
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 3139 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

WsV

Executed on

, 2021

6
William H. Viehweg
Petitioner
114 W. 2nd South
Mt. Olive, II 62069
217-999-5061

